OIG Investigative Reports, Theology Student Pleads Guilty to Student Loan Fraud of $29,500
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
PRESS RELEASE
Theology student pleads guilty to Student Loan Fraud of $29,500
Washington, D.C - United States Attorney Wilma A. Lewis announced that Pierre L Williams, 52, of Baltimore, Maryland, pled guilty today to defrauding the United States Department of Education by using false social security numbers in order to secure $29,500 in guaranteed student loans.  Specifically, Williams pled guilty to one count of Student Assistance Fraud before the Honorable Thomas F. Hogan of the United States District Court for the District of Columbia.  Williams, who is scheduled to be sentenced on February 8, 2000, faces up to five years in prison, a $250,000 fine and an order of restitution.
According the information provided to the court during today's hearing, Williams was pursuing a master's degree in divinity at the Wesley Theological Seminary at the time of the offense and in the fall of 1995, submitted an application for financial aid using his true social security number.  Because he had previously defaulted on his college student loans in the 1980's, his financial aid application was denied.  For the following academic year, he submitted a second financial aid application using a false social security number.  The Office of Financial Assistance at Wesley Theological Seminary approved this application and processed the loans. In subsequent applications, Williams used two other social security numbers, both false, to secure additional loans.  When officials at Wesley learned of the discrepancies and confronted the defendant, he initially denied having committed the fraud, but he eventually admitted his guilt in statements made to federal investigators and administrators at Wesley.
In announcing today's guilty plea, United States Attorney Lewis praised Special Agent Sophia Jones of the Department of Education, who conducted the investigation and thanked officials at Wesley Theological Seminary for their cooperation.  Ms. Lewis also praised Assistant United States Attorneys Fred Yette and Amy Jeffress, who prosecuted the case.
Top
Printable view
Share this page
Last Modified: 02/28/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov